United States v. Quinn (5th Cir. 2020)

UNITED STATES OF AMERICA, Plaintiff—
Appellee,
v.
JERRY LEE QUINN, Defendant—
Appellant.
No. 19-60370
United States Court of Appeals for the
Fifth Circuit
September 3, 2020
Appeal from the United States District Court for
the
Northern
District
of
Mississippi
USDC No. 3:18-CR-49-1
Before STEWART, CLEMENT, and COSTA,
Circuit Judges.
GREGG COSTA, Circuit Judge:*
A jury convicted Jerry Lee Quinn of gun and
drug crimes. Quinn argues that the district court
should not have admitted a prior statement of a
key witness, did not adequately inquire into his
request to substitute court-appointed counsel,
and erred in finding him competent to stand trial.
Finding no reversible error, we AFFIRM.

Quinn's name; and (6) a graduation party
invitation from Quinn. The black backpack
contained: (1) one round of 9-millimeter
ammunition; (2) a hairbrush that, based on later
testing, has Quinn's DNA; (3) Quinn's birth
certificate; (4) some legal paperwork with Quinn's
name; and (5) an airplane ticket in Quinn's name.
In a written statement, Buckingham said the bags,
guns, and drugs were Quinn's.
A search of the house revealed two containers
of marijuana: one on a stereo and one in a
bedroom near a duffel bag. The bag contained
miscellaneous clothing and religious material,
with a postcard addressed to Quinn inside a book.
A grand jury charged Quinn with being a
felon in possession of a firearm, possession with
intent to distribute marijuana, marijuana
distribution, and using a firearm in furtherance of
a drug trafficking crime. Quinn claimed he was
incompetent to stand trial on account of memory
loss. Finding credible the testimony of a
psychologist who evaluated Quinn and concluded
he was malingering, the district court found him
competent.
Page 3
Quinn, who was represented by the Public
Defender's Office, also twice asked for a new
lawyer, but the court denied his requests.

Page 2
I.
Quinn and Randy Buckingham were outside
Buckingham's house when law enforcement
arrived to arrest Quinn on a state warrant. The
pair fled. Buckingham ran through the house
before a K-9 unit captured him at the back of the
house roughly fifteen seconds later. Another K-9
unit caught Quinn in nearby woods.
Buckingham was carrying two backpacks
when he was arrested. The blue backpack
contained: (1) a Crown Royal bag with 24.3 grams
of marijuana inside; (2) a loaded 9-millimeter
pistol wrapped in a manila envelope; (3) a loaded
revolver wrapped inside of a white envelope; (4) a
toothbrush that, based on later testing, has
Quinn's DNA; (5) three rewards cards linked to

Buckingham testified at trial, telling the jury
that the drugs and guns found in the backpacks
and his home belonged to Quinn. The jury
convicted Quinn on all charges except using a
firearm in furtherance of a drug trafficking crime.
The court sentenced him to 65 months in prison.
II.
Quinn first argues that the district court erred
in admitting a prior statement of Buckingham's—
the one he made the night he and Quinn were
arrested—that corroborated his testimony that the
guns and drugs belonged to Quinn.1 A prior
statement is not hearsay, and can be used not just
for impeachment but also as substantive

APPENDIX A

United States v. Quinn (5th Cir. 2020)

evidence, if: (1) the declarant testifies and is
subject to cross-examination about the statement;
(2) there was an express or implied charge that
the declarant recently fabricated his testimony or
testified with a recent improper influence or
motive; (3) the proponent offers a prior statement
from the declarant that is consistent with his incourt testimony to rebut the charge of improper
motive; and (4) the declarant made the prior
statement before the time his alleged improper
motive arose. Tome v. United States, 513 U.S.
150, 156-57 (1995) (citing FED. R. EVID.
801(d)(1)(B)). Quinn challenges the final
"premotive"
requirement.
This
temporal
limitation does not appear in the text of Rule 801
but is a common-law principle that the Supreme
Court read into the rule. Id. at 156. The rationale
is that only statements made before an alleged
improper motive took root are "direct and
forceful" enough to "square[ly] rebut[]" such a
charge. Id. at 158. In Tome, that meant
prosecutors could not introduce prior
Page 4
statements that a child had accused her father of
sexual abuse in response to an argument that the
child's allegations were motivated by a desire to
live with her mother as that motive also existed
when she made the out-of-court statements. Id. at
165-67.
Although he objected to the prior statement,
Quinn did not invoke the premotive requirement,
or anything about hearsay, as a reason for
excluding it. That impacts the standard of review.
The government does not argue that Quinn failed
to preserve this issue, but we are not bound by the
standard of review the parties urge.2 See, e.g.,
United States v. Davis, 380 F.3d 821, 827 (5th
Cir. 2004). A "generic[] assert[ion] that 'Rule
801(d)(1)(B) does not apply'"—and not even that
objection was made here as defense counsel just
argued that asking about the prior statement on
redirect was beyond the scope of crossexamination—is too general to preserve a
premotive challenge. United States v. Williams,
264 F.3d 561, 575 (5th Cir. 2001) That is because
the premotive requirement is not obvious from

Rule 801's text, so a broad objection is not
"specific enough to allow the trial court to take
testimony, receive argument, or otherwise explore
the issue." Id. (citation omitted). Plain-error
review is thus appropriate. Id. at 576.
The second requirement of plain-error
review—the need for the error to be plain or
obvious for us to correct it when the district court
was not given the chance to do so—dooms
Quinn's challenge to the prior statement. United
States v. Maturin, 488 F.3d 657, 663 (5th Cir.
2007) ("An error is considered plain, or obvious,
for purposes of this court's plain error inquiry
Page 5
only if the error is clear under existing law.");
accord United States v. Olano, 507 U.S. 725, 734
(1993). That is because Quinn's lawyer crossed
Buckingham about two motives he had to falsely
accuse Quinn. First, he insinuated that
Buckingham would have wanted to shift blame as
soon as he was caught to avoid criminal liability.
If the guns and drugs were his, he would have
been guilty of not only the drug crimes but also of
possessing a firearm as a felon. Second, and more
prominently, he highlighted how Buckingham
faced state marijuana charges (some from his
night with Quinn and some from an earlier
incident) that prosecutors promised to drop if he
testified against Quinn.
Quinn now argues the statement was
inadmissible because Buckingham had a motive
to lie when he made the written statement—
namely, his desire to avoid criminal liability. But
the second motive to lie, relating to the deal
Buckingham obtained from prosecutors, did not
exist when he made the out-of-court statement
implicating Quinn.
Quinn's appeal thus raises the question
whether, to be admissible, Buckingham's prior
statement had to rebut one or both of the
improper motives Quinn alleged at trial. If the
statement had to rebut only one motive, then it
was admissible because it predated the plea deal.

APPENDIX A

United States v. Quinn (5th Cir. 2020)

Neither Tome nor our court has addressed
this "two motives" question.3 The federal
appellate courts that have confronted the issue

the statement in this double-motive scenario. The
premotive requirement thus cannot be a basis for
vacating Quinn's conviction when the trial court
was not apprised of the issue.

Page 6
III.
unanimously hold that the prior statement may
come in so long as it predated one of the alleged
motives to lie. See United States v. Kootswatewa,
893 F.3d 1127, 1135 (9th Cir. 2018); United States
v. Londondio, 420 F.3d 777, 784-85 (8th Cir.
2005); see also United States v. Allison, 49 M.J.
54, 57 (C.A.A.F. 1998). State and District of
Columbia courts applying rules of evidence that
contain a premotive requirement are split, but a
slight majority take the view federal courts have.
Compare Mason v. United States, 53 A.3d 1084,
1092 (D.C. 2012), People v. Hillhouse, 40 P.3d
754, 769 (Cal. 2002), and Dowthitt v. State, 931
S.W.2d 244, 264 (Tex. Crim. App. 1996) (all
admitting the statements if they predate one
alleged motive), with Thomas v. State, 55 A.3d
10, 22 (Md. 2012), and People v. Lewis, 408
N.W.2d 94, 99 (Mich. Ct. App. 1987) (both
admitting a statement only if it predates all
possible motives to fabricate). The majority
position reasons that "[a] prior consistent
statement logically bolsters a witness's credibility
whenever it predates any motive to lie, not just
when it predates all possible motives." Hillhouse,
40 P.3d at 769. And one court has explained that
a jury told about alleged improper motives that
arose before and after a prior consistent
statement is capable of weighing the competing
inferences. Mason, 53 A.3d at 1092-93. The
minority view reasons that any improper motive
arising before a prior statement casts doubt on its
veracity, thus depriving the statement of the
credibility needed for its use as substantive
evidence of guilt. See Thomas, 55 A.3d at 20-22
(citing Tome, 513 U.S. at 158).
Page 7
We need not take a position on this issue
because of the plain-error posture. An error
cannot be obvious when there is a split in
persuasive authority, especially when every court
applying the federal rules of evidence has allowed

Quinn also contends that the district court
failed to inquire into complaints he made about
his trial lawyer in violation of the Sixth
Amendment.4 He made two requests for a new
lawyer: one during trial and another before
sentencing.
The Sixth Amendment guarantees indigent
defendants the right to appointed counsel, but it
does not promise them the counsel of their
choice. United States v. Mitchell, 709 F.3d 436,
441 (5th Cir. 2013). Nevertheless, when a
defendant makes a good-faith request for new
counsel, the district court typically must inquire
about why he is dissatisfied. 3 WAYNE R.
LAFAVE ET AL., CRIMINAL PROCEDURE §
11.4(b) (4th ed. 2019); see also United States v.
Woods, 487 F.2d 1218, 1219-20 (5th Cir. 1973);
United States v. Young, 482 F.2d 993, 995 (5th
Cir. 1973). The inquiry allows the court to assess if
there is a problem that could affect the lawyer's
ability to represent the defendant. See United
States v. Fields, 483 F.3d 313, 352 (5th Cir.
2007). A defendant is entitled to substitute
appointed counsel only if he shows "good cause,
such as a conflict of interest, a complete
breakdown in
Page 8
communication[,] or an irreconcilable conflict
which leads to an apparently unjust verdict."
Young, 482 F.2d at 995 (citation omitted).
On the first day of trial, the court
memorialized an in-chambers meeting during
which Quinn requested a different attorney. It
summarized Quinn's concerns as (1) not feeling
comfortable with his public defender, and (2)
discontent that the public defender had not
represented him aggressively. The court noted
that it had held hearings and granted several of

APPENDIX A

United States v. Quinn (5th Cir. 2020)

the public defender's motions without hearing
any complaints from Quinn. It then stated that
Quinn's complaints were untimely. When the
court asked Quinn if he had anything to add,
Quinn responded that he was hoping for a hearing
and ruling on his pro se motion to dismiss for a
Speedy Trial Act violation. The court later
clarified that it had already denied the motion.
The district court satisfied its duty to inquire
about this last-minute request for new trial
counsel. "The duty to inquire is not so formalistic
as to require affirmative questioning when such is
rendered unnecessary because the parties have
volunteered all the relevant information for a
court to determine that no substantial conflict
exists." Fields, 483 F.3d at 352. And contrary to
Quinn's assertions, there are no other instances
when he complained about counsel before or
during trial.
The concerns Quinn did raise were not good
cause for new appointed counsel. Mere
discomfort with one's lawyer falls far short of the
usual justifications that warrant a new one. See
United States v. Romans, 823 F.3d 299, 312-13
(5th Cir. 2016) ("Although it is evident that [the
defendant] mistrusted and disliked [his appointed
counsel], there is no indication that there was a
'complete breakdown in communication' or an
'irreconcilable conflict' between the two, nor is
there any evidence of a conflict of interest."). So
do qualms with a lawyer's aggressiveness, which
reflect strategic differences rather than
constitutionally inadequate representation.
Page 9
See 3 LAFAVE ET AL., supra, § 11.4(b) ("[T]he
defendant cannot insist upon new counsel
because he doesn't like the appointed counsel's
'attitude[]' . . . or approach on matters of
strategy."); see also United States v. Moore, 706
F.2d 538, 540 (5th Cir. 1983) (a defendant is not
entitled to "an attorney who agrees with [his]
personal view of the prevailing law" nor "an
attorney who will docilely do as he is told").
Accordingly, the district court did not violate

Quinn's Sixth Amendment right in responding to
the concerns he raised about his lawyer at trial.
Nor did the court err when Quinn reurged the
request for new counsel before sentencing. In a
letter to the court, he stated there was "a conflict
of interest" and "assert[ed] ineffective assistance
of trial counsel for working with the government
to tear down [his] defenses." Quinn said that the
public defender: (1) "fail[ed] to defend [his] right
to speedy trial"; (2) failed to subpoena a defense
witness and "failed to keep prosecution witness
under subpoena as a defense witness"; and (3)
"came to the jail days prior to trial and attacked
and assaulted [him] verbally." The district court
rejected Quinn's request as "inappropriate"
because sentencing would "be conducted shortly."
Assuming the district court should have
interpreted Quinn's letter as a motion to
substitute counsel, Quinn's post-trial complaint
presents a closer issue than his earlier one. The
district court held no hearing to discuss his posttrial complaints. Again, however, the key is
whether the court had enough information to
"adequately appraise" Quinn's concerns without
further inquiry. United States v. Stewart, 671 F.
App'x 325, 326 (5th Cir. 2016) (per curiam).
It did. To begin, the court had already denied
Quinn's pro se motion to dismiss the indictment
for Speedy Trial Act violations (it was frivolous).
The public defender's refusal to file that frivolous
motion—Quinn was
Page 10
counting time he was in state custody before
appearing on the federal charge, see 18 U.S.C. §
3161(c)(1) (starting the speedy trial clock from the
later of the return of the indictment or the
appearance of the defendant)—did not make him
constitutionally ineffective. See Romans, 823 F.3d
at 312 (holding there was not good cause for new
counsel when defendant had complained that his
lawyer "was not filing the motions that he wanted
him to file").

APPENDIX A

United States v. Quinn (5th Cir. 2020)

The same goes for the public defender's
strategic decisions about witnesses. See
Alexander v. McCotter, 775 F.2d 595, 602 (5th
Cir. 1985) ("[C]omplaints based upon uncalled
witnesses [are] not favored because the
presentation of witness testimony is essentially
strategy and thus within the trial counsel's
domain."). The public defender explained that
Quinn had initially not helped him find any
witnesses. See also Fields, 483 F.3d at 352 (citing
cases for the proposition that, when faced with a
defendant's complaints about his counsel, a court
can credit the defense attorney's representations).
Quinn eventually decided he wanted to call
witnesses, but only after opening statements. The
next day, the public defender was still prepared to
examine two witnesses (and called one),
notwithstanding Quinn's about-face. Accordingly,
what "the court heard on the record apprised it
sufficiently of the relevant facts" to determine that
Quinn's lawyer had not been constitutionally
derelict in failing to subpoena witnesses. Id.
The record reveals little about the third
allegation in Quinn's letter—that his lawyer
verbally assaulted him in jail before trial.
Rectifying that dearth of information is the
purpose of the duty to inquire. See id. But two
points suggest that affirmative questioning on this
concern was also unnecessary. First, Quinn said
the jailhouse altercation took place before trial
and thus before he raised his initial concerns
about his lawyer. That means either the district
court already considered the allegation before
receiving Quinn's letter or Quinn did not mention
it among his first round of
Page 11
concerns. Either situation casts doubt on the
seriousness of the allegation. Second, what the
district court observed at trial suggested that any
strife between Quinn and his lawyer was not
enough of an impediment to constitute good
cause for substitute counsel. The trial record
reveals numerous instances of Quinn and his
lawyer working together. One example occurred
during a recess, when Quinn described how he
and his lawyer were "talking about the witnesses

we should call." Later there was an "[o]ff-therecord discussion" between Quinn and his lawyer
during direct examination of the defense's sole
witness. As these and other examples show,
whatever happened in the jailhouse did not result
in "a complete breakdown in communication or
an irreconcilable conflict." See Young, 482 F.2d at
995 (citation omitted).
The district court did not err in denying
Quinn new counsel for sentencing without
holding a hearing on the request.5
Page 12
IV.
Quinn's final argument is that there should
not have even been a trial because he was not
competent. After Quinn's counsel raised a
concern about competency, the district court
ordered an evaluation. Once the examination was
complete, the court held a competency hearing.
Quinn testified that he did not remember the
events leading to his arrest. Bureau of Prisons
psychologist Leticia Armstrong, who had
observed Quinn for about a month and
interviewed him ten times, opined that Quinn was
malingering. The district court credited Dr.
Armstrong's testimony, finding that Quinn was
competent and feigning memory loss.
Quinn asserts that Armstrong's evaluation
was flawed. He says that she focused too much on
whether he could follow the legal proceedings
against him and not enough on his memory loss.
He also challenges Armstrong's methodology,
claiming that, for various reasons, the tests she
used to rule out amnesia missed genuine memory
problems.
Quinn's arguments face an uphill climb as we
will overturn a district court's competency finding
only if it was "clearly arbitrary or unwarranted."
United States v. Stanford, 805 F.3d 557, 571 (5th
Cir. 2015) (citation omitted). We have recognized
that such deference is especially appropriate
when the defendant claims amnesia. United
States v. Swanson, 572 F.2d 523, 526-27 (5th Cir.

APPENDIX A

United States v. Quinn (5th Cir. 2020)

1978). For that difficult-to-assess condition, the
district court hearing the medical testimony and
other evidence is in the "best position" to decide
whether the amnesia claim is being used as an
"unjustified haven for a defendant" or describes
an actual defect rendering the defendant
incompetent. Id. at 526.

***
The judgment is AFFIRMED.
-------Footnotes:
Pursuant to 5TH CIRCUIT RULE 47.5, the
court has determined that this opinion should not
be published and is not precedent except under
the limited circumstances set forth in 5TH
CIRCUIT RULE 47.5.4.
*.

Page 13
Quinn cannot demonstrate that the district
court's competency finding was clearly arbitrary
or unwarranted. On the contrary, the court's
finding had a strong basis in the record. Most
significantly, the only psychological expert that
testified opined—based on a month-long
evaluation—that he was competent. See United
States v. Birdsell, 775 F.2d 645, 649-51 (5th Cir.
1985) (upholding competency finding based on
opinion of government experts who observed
defendant while he was incarcerated over 90-day
period). Even when experts disagree on
competency, crediting one of those experts will
usually sustain a competency finding. See, e.g.,
Stanford, 805 F.3d at 571-72; United States v.
Dockins, 986 F.2d 888, 892-93 (5th Cir. 1993).
Although Armstrong's report might not have
spilled as much ink on Quinn's claims of memory
loss as he would have liked, she did address them.
Armstrong considered whether Quinn's reported
memory problems could have been caused by a
neurocognitive disorder due to traumatic brain
injury suffered during his arrest. But she rejected
that notion because Quinn's medical records did
not show that he suffered any traumatic brain
injury, Quinn's own reporting was inconsistent,
and staff observations of Quinn were inconsistent
with a cognitive deficit.
Those observations of Quinn's everyday
interactions, along with test results showing a
lack of effort, led Armstrong to conclude Quinn
was feigning his amnesia. That evidence supports
a malingering determination. See Dockins, 986
F.2d at 891. The district court was not off-base in
concluding that Quinn was competent; plenty of
evidence supported its conclusion.

The court did not actually admit
Buckingham's written statement but allowed him
to testify about it during the government's
redirect.
1.

In supplemental briefing, Quinn argues that
the government can waive the standard of review.
In doing so, however, he cites cases involving the
procedural default rule of federal habeas law. See,
e.g., Trest v. Cain, 522 U.S. 87, 89 (1997); Atkins
v Hooper, -- F.3d --, 2020 WL 4557116, at *2 (5th
Cir. Aug. 7, 2020). Unlike the standard of review,
procedural default is an affirmative defense to a
petition seeking postconviction relief and is thus
waivable. See Magouirk v. Phillips, 144 F.3d 348,
357 (5th Cir. 1998).
2.

We have held that "[a] prior consistent
statement need not rebut all motives to fabricate,
but only the specific motive alleged at trial."
United States v. Wilson, 355 F.3d 358, 361 (5th
Cir. 2003). That statement does not directly
address a situation like this one when a party
alleged multiple improper motives at trial.
Wilson's reasoning, however, supports the
majority view that the prior statement is
admissible so long as it was made before at least
one motive to lie that was presented to the jury.
Like Buckingham, the Wilson witness made the
prior statement before the opportunity for a plea
deal arose. Id. The premotive requirement was
thus satisfied, and the prior statement could be
used to rebut the charge that he was testifying
against the defendant because of the plea deal. Id.
It did not matter that the witness had another
motive to lie when he made the statement—he
3.

APPENDIX A

United States v. Quinn (5th Cir. 2020)

was trying to extort someone into paying for his
attorney. Id. If Quinn is correct that any motive to
lie deprives the statement of the reliability Rule
801(d)(1)(B) requires, then it should not matter
whether that motive was presented to the jury.
But Wilson does not take that view and allows the
statement. In doing so, it relies on two of the
cases that considered our situation involving two
motives presented at trial and allowed the prior
statement because it predated at least one of the
motives. Id. at 361-62 (citing United States v.
Allison, 49 M.J. 54, 57 (C.A.A.F. 1998); Dowthitt
v. State, 931 S.W.2d 244, 264 (Tex. Crim. App.
1996)).

representation from a failure to inquire, though
they do not articulate a standard or specify which
party bears the burden of meeting it. See, e.g.,
Young, 482 F.2d at 995-96; Stewart, 671 F. App'x
at 326. To the extent that is the governing
standard, it is notable that Quinn's counsel
obtained an acquittal on the firearm charge that
would have required a sentence of five years
consecutive to the sentence for his other offenses.
See 18 U.S.C. § 924(c)(1)(A)(i).
--------

Quinn does not argue the court abused its
discretion in denying him substitute counsel
absent a Sixth Amendment violation. That would
pose a much higher bar for him. A district court's
discretion is "broad" when handling last-minute
requests like Quinn's. United States v. Norris,
780 F.2d 1207, 1211 (5th Cir. 1986).
4.

Because we find no error, we need not
decide what the remedy would be. Many older
cases treated duty-to-inquire error as warranting
automatic reversal. See, e.g., Woods, 487 F.2d at
1220; see also 3 LAFAVE ET AL., supra, § 11.4(b)
n.40 (collecting cases). But the recent trend has
been to assess the error's impact, either for
harmlessness (in which case the government
bears the burden) or prejudice (the Strickland
inquiry, which, among other things, puts the
burden on the defendant). See United States v.
Lott, 310 F.3d 1231, 1250 (10th Cir. 2002); United
States v. Calderon, 127 F.3d 1314, 1343 (11th Cir.
1997); United States v. Graham, 91 F.3d 213, 22122 (D.C. Cir. 1996); United States v. Zillges, 978
F.2d 369, 372-73 (7th Cir. 1992). A leading
treatise reads Supreme Court dicta as indicating
that Strickland applies. 3 LAFAVE ET AL., supra,
§ 11.4(b) (explaining that Mickens v. Taylor, 535
U.S. 162 (2002), "characterized the Strickland
prejudice standard as ordinarily governing any
claim that ultimately rests on the ineffective
assistance of counsel").
5.

Some Fifth Circuit cases follow this modern
trend
requiring
some
impact
on
the

APPENDIX A

